Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





      ENROLLMENT LEVELS 

        IN HEAD START





                    Daniel R. Levinson

                     Inspector General 


                       April 2007

                     OEI-05-06-00250

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
I N T R O D        U C T     I O N
Δ    E X E C U T I V E                          S U M M A R Y     



                    OBJECTIVES
                    1.	 To determine the enrollment levels of Head Start grantees.

                    2.	 To describe grantees’ challenges to maintaining full enrollment.

                    3.	 To assess the Administration for Children and Families’ (ACF)
                        monitoring of enrollment.

                    4.	 To assess ACF’s enforcement of full enrollment.


                    BACKGROUND
                    Established in 1964, Head Start is a nationwide program designed to
                    increase school readiness in children from low-income families. Within
                    ACF, the Office of Head Start administers Head Start. In fiscal year
                    (FY) 2005, ACF provided $6.8 billion in funding to grantees for
                    approximately 900,000 Head Start children. Grantees are local public
                    agencies, private organizations, Native American tribes, and school
                    systems.

                    To determine the enrollment levels of Head Start grantees, we analyzed
                    attendance data from 200 randomly sampled grantees. We also
                    surveyed sampled grantees and ACF staff regarding challenges to
                    maintaining full enrollment. To assess ACF’s monitoring of enrollment
                    levels, we reviewed the accuracy of the enrollment data reported by
                    grantees. To assess ACF’s enforcement of full enrollment, we
                    interviewed grantees and ACF staff.


                    FINDINGS
                    Almost all Head Start grantees had high enrollment levels. In the
                    2006 program year, 40 percent of grantees were fully enrolled.
                    Eighty-one percent of Head Start grantees had enrollment levels of
                    95 percent or higher. Enrollment levels by grantee ranged from full
                    enrollment to a low of 68 percent.

                    Overall, this translated into 5 percent of Head Start slots that were
                    funded but not filled. Head Start slots that are funded but not filled
                    equal Federal dollars that are inefficiently used.




 OEI-05-06-00250    ENROLLMENT LEVELS   IN   H E A D S TA R T                                i
E X E C U T I V E              S U          M M A R Y


                   Grantees cited challenges to maintaining full enrollment. Grantees
                   cited the requirement to fill 90 percent of Head Start slots with very
                   low-income children, competition with State and locally funded
                   prekindergarten programs, and transportation issues as the biggest
                   challenges to maintaining full enrollment.
                   ACF’s monitoring of enrollment levels may rely on inaccurate data.
                   For the 2006 program year, only 11 percent of grantees reported to ACF
                   actual enrollment levels that matched the actual enrollment levels we
                   determined based on attendance records. We also question the ability of
                   26 percent of grantees to maintain accurate attendance records and
                   thus their ability to determine enrollment accurately.
                   ACF’s enforcement of full enrollment has increased overall but
                   varies by region. ACF has increased its practice of reducing or
                   withholding funds to grantees not at full enrollment. However,
                   reductions varied greatly by region. In particular, there were variations
                   among regions in the levels of underenrollment that prompted funding
                   reductions and the amounts of the reduction. ACF has also increased
                   its supplemental monitoring and is providing additional technical
                   assistance to grantees.


                   RECOMMENDATIONS
                   Based on the results of our review, ACF should:

                   Address grantee challenges to maintaining full enrollment. ACF
                   should focus particular attention on the challenges identified in this
                   report: the requirement that grantees fill 90 percent of slots with
                   children from very low-income families, competition with State and
                   locally funded prekindergarten programs, and transportation issues.
                   Ensure that enrollment data are accurate. To help ensure the
                   accuracy of reported enrollment data, ACF should work with grantees to
                   facilitate the maintenance of accurate attendance records and provide
                   Program Information Report training to grantees.
                   Issue guidance concerning the use of funding reductions for
                   grantees not at full enrollment. To ensure consistent enforcement of
                   the full enrollment requirement, ACF should clarify guidelines to
                   regional offices concerning the level of enrollment that warrants a
                   funding reduction. ACF should also issue guidance concerning the
                   calculation of funding reductions and the process of negotiating funding
                   reductions with grantees.

 OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                                ii
E X E C U T I V E              S U          M M A R Y 




                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   ACF indicated general support for our recommendations. However,
                   ACF pointed out problems with two suggestions we offered on how our
                   recommendation to address grantee enrollment challenges regarding
                   the requirement that grantees fill 90 percent of slots with children from
                   very low-income families might be implemented. We continue to
                   recommend that ACF address grantees’ reported challenges to
                   maintaining full enrollment, including challenges related to the
                   income-eligibility guidelines.




 OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                            iii
Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                    Almost all grantees had high enrollment. . . . . . . . . . . . . . . . . . . . 10 


                    Grantees cited challenges to maintaining full enrollment . . . . . . 11 


                    ACF’s monitoring may rely on inaccurate data . . . . . . . . . . . . . . . 13 


                    ACF’s enforcement increased but varied . . . . . . . . . . . . . . . . . . . . 15 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                    Agency Comments and Office of Inspector General Response . . . 19 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                    A: Detailed methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 


                    B: Estimates and confidence intervals . . . . . . . . . . . . . . . . . . . . . 23 


                    C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

I N T R O D        U C T     I O N
Δ    I N T R O D U C T I O N                                    



                    OBJECTIVES
                    1.	 To determine the enrollment levels of Head Start grantees.

                    2.	 To describe grantees’ challenges to maintaining full enrollment.

                    3.	 To assess the Administration for Children and Families’ (ACF)
                        monitoring of enrollment.

                    4.	 To assess ACF’s enforcement of full enrollment.


                    BACKGROUND
                    Head Start
                    Established in 1964, Head Start is a nationwide grant program
                    designed to promote school readiness in children from low-income
                    families. Head Start services include early childhood education;
                    medical, dental, and mental health care; nutritional services; and efforts
                    to encourage parental involvement.

                    Within ACF, the Office of Head Start (OHS) administers Head Start.
                    OHS administers four Head Start programs: the Head Start program,
                    the Early Head Start program, the American Indian–Alaska Native
                    Head Start program, and the Migrant and Seasonal Head Start
                    program. In fiscal year (FY) 2005, ACF funded approximately
                    900,000 slots for children, with the majority (800,750) of slots awarded
                    to the Head Start program and the American Indian–Alaska Native
                    Head Start program. We limited our study to these two Head Start
                    programs, hereafter referred to as Head Start.

                    ACF awards Head Start funds directly to grantees. Grantees are local
                    public agencies, private organizations, Native American tribes, and
                    school systems. In FY 2006, ACF awarded funds to 1,405 grantees.
                    Many Head Start grantees contract out the operation of services to
                    delegate agencies that operate programs at the community level.
                    Head Start Eligibility
                    Head Start serves children from age 3 through the State mandatory school
                    age (generally age 5). Head Start services are available to families who
                    meet any of the following four criteria:




 OEI-05-06-00250    ENROLLMENT LEVELS   IN   H E A D S TA R T                              1
I N T R O D        U C T      I O N


                    o	 The family income is at or below the poverty line (in FY 2006,
                      $20,000 for a family of four)1;
                    o	 The family receives Social Security Income (SSI) benefits;

                    o	 The family receives benefits or services on a regular basis2 through
                      Temporary Assistance for Needy Families (TANF); or
                    o	 The family cares for a foster child.

                    At least 90 percent of children enrolled by each Head Start grantee
                    must be from low-income families. Head Start grantees may enroll
                    children from families with incomes above the poverty line so long as
                    they do not exceed 10 percent of total enrollment.3 Grantees must also
                    offer 10 percent of their slots to children with disabilities, regardless of
                    income.4
                    Head Start Funding
                    Grantees’ base funding is their historical funding amount from 1998.
                    Additional funds are determined using a formula based on the number
                    of children under age 5 living in poverty in each State.5 Funding for all
                    four programs of Head Start was $6.8 billion in FY 2005.6
                    Head Start funding covers not only the costs of program services
                    (e.g., health services, teacher salaries, parent involvement services) but
                    also administrative costs, including organizationwide management
                    functions of accounting, budgeting, coordination, direction, and
                    planning; as well as the management of payroll, personnel, property,
                    and purchasing.7 Because grantee funding covers both direct and
                    indirect costs, ACF does not compute funding using a predetermined
                    per-child formula.
                    Once ACF awards funds to a Head Start grantee, the funding continues
                    until the grantee relinquishes the grant or ACF terminates it for cause.

                      1 Annual update of the Department of Health and Human Services Poverty Guidelines,
                    71 Federal Register 3848 (January 24, 2006).
                      2 ACF Program Instruction, “Receipt of Public Assistance and Determining Eligibility for
                    Head Start” (ACYF-PI-HS-99-06), July 29, 1999.
                      3 45 CFR § 1305.4(b)(2). A Head Start grantee operated by an Indian tribe may enroll up
                    to 49 percent of its children from families whose income exceeds the low-income guidelines
                    under certain conditions specified in 45 CFR § 1305.4(b)(3).
                      4 Section 640(d) of the Head Start Act, 42 U.S.C. § 9835(d), and 45 CFR § 1305.6(c). 

                      5 Section 640(a)(4) of the Head Start Act, 42 U.S.C. § 9835(a)(4). 

                      6 Consolidated Appropriations Act, 2005, Pub. L. No. 108-447. 

                      7 45 CFR § 1301.32(b) and (c).





 OEI-05-06-00250    ENROLLMENT LEVELS   IN   H E A D S TA R T                                                    2
I N T R O D        U C T     I O N


                    After ACF grants the initial award, the grantee submits a
                    noncompetitive continuation application for subsequent budget periods.8
                    Grantees are generally required to match 20 percent of their Head Start
                    grant award with non-Federal funds.9 According to ACF, most grantees
                    fulfill this requirement through in-kind donations (e.g., subsidized
                    space, volunteer staff); however, some grantees fulfill this requirement
                    using State funds.
                    Enrollment Requirements
                    ACF assigns each grantee a specific number of children it is required to
                    serve, known as the funded enrollment. In negotiating how many Head
                    Start children a grantee will serve, ACF considers variation in grantee
                    services and locality costs. By accepting their annual Head Start grant
                    award, grantees agree to serve the number of children assigned.10
                    Head Start regulations require grantees to maintain enrollment at
                    100 percent of the funded enrollment level.11 If a child stops attending
                    Head Start, the grantee must establish that a vacancy exists. No more
                    than 30 calendar days may elapse before the grantee fills the vacancy;
                    otherwise, ACF considers the grantee underenrolled. ACF refers to a
                    vacancy left open more than 30 days as an “enrollment vacancy.” If
                    fewer than 60 days remain in the grantee’s program year at the time an
                    enrollment vacancy occurs, the grantee can choose not to fill the vacancy
                    without ACF considering it underenrolled.

                    To facilitate prompt filling of vacancies, Head Start regulations require
                    each grantee to maintain a waiting list that ranks children according to
                    its selection criteria and to select those with the greatest need for Head
                    Start services.12
                    Monitoring Enrollment
                    Nationally, ACF monitors Head Start enrollment through the Program
                    Information Report (PIR) and the Program Review Instrument for



                      8 ACF, “Application and Grant Award Process.” Available online at

                      http://eclkc.ohs.acf.hhs.gov/hslc/Program%20Design%20and%20Management/Fiscal/Gran
                    t%20Award%20Process/Grant%20Award%20Process/fiscal_pub_00154a_080905.htm.
                    Accessed on January 9, 2007.
                      9 Section 640(b) of the Head Start Act, 42 U.S.C. § 9835(b), and 45 CFR § 1301.20.
                      10 45 CFR § 1305.2(f).
                      11 45 CFR § 1305.7(b).
                      12 45 CFR § 1305.6.




 OEI-05-06-00250    ENROLLMENT LEVELS   IN   H E A D S TA R T                                              3
I N T R O D        U C T      I O N


                    Systems Monitoring (PRISM). Regional and branch offices monitor
                    enrollment through ongoing contact with grantees in their regions.

                    Federal regulations require grantees to “establish and implement
                    procedures for ongoing monitoring.”13 Grantees use PIR software to
                    self-report enrollment, demographic, and performance data to ACF.
                    Grantees report a variety of information, including their funded
                    enrollment and actual enrollment levels. Two studies from the Office of
                    Inspector General (OIG), “Status of Efforts To Increase Qualifications of
                    Head Start Teachers” and “Head Start Services for Children With
                    Asthma,” cited concerns related to PIR data.14 These reports noted that
                    grantees receive little training or guidance about completing the PIR
                    and questioned the usefulness of PIR data.

                    In 2003, the Government Accountability Office (GAO) found that ACF
                    could not determine the level of enrollment in Head Start from PIR data
                    because of inaccuracies in the database and reporting delays.15 GAO
                    also noted that data often arrived after the beginning of the subsequent
                    program year and that ACF allowed grantees to select the 2 months for
                    which they provided enrollment figures. 16
                    In 2006, ACF addressed some of these issues. Specifically, ACF now
                    requires grantees to report enrollment levels for 3 specified months.
                    Additionally, grantees must submit their enrollment data for these
                    3 months as soon as each month has ended.17
                    PRISM is a standardized instrument used by ACF staff to conduct
                    comprehensive reviews of Head Start grantees. Each Head Start
                    grantee receives a PRISM review every 3 years. This intensive,
                    weeklong review covers all aspects of grantees’ performance, including
                    enrollment. Using PRISM, reviewers calculate a grantee’s enrollment
                    by counting the number of children enrolled during the week of their
                    onsite review.



                      13 45 CFR § 1304.51(i)(2).
                      14 “Status of Efforts To Increase the Qualifications of Head Start Teachers”
                    (OEI-07-01-00560), 2004; and “Head Start Services for Children With Asthma”
                    (OEI-09-01-00330), 2002.
                      15 “Head Start: Better Data and Processes Needed To Monitor Underenrollment,”
                    (GAO-04-17), p. 2.
                      16 Ibid, p. 14.
                      17 ACF Information Memorandum, “On-line Reporting Beginning in November, 2006”
                    (ACF-IM-HS-06-04), September 12, 2006.



 OEI-05-06-00250    ENROLLMENT LEVELS   IN   H E A D S TA R T                                          4
I N T R O D        U C T      I O N


                    Enforcing Full Enrollment
                    Maintaining full enrollment was a major focus of the 2004 Head Start
                    Management Initiative.18 The initiative reiterated the regulatory
                    definition of underenrollment as anything less than 100 percent
                    enrollment. The initiative stated that ACF would hold systematic,
                    periodic discussions with grantees related to enrollment.

                    Head Start regulations and guidance specify that grantees that do not
                    maintain full enrollment may be referred for technical assistance or
                    may face a reduction in funding, denial of refunding, or termination of
                    financial assistance. 19 Regulations and guidance do not specify the
                    amount of the reduction.20 ACF reports that most reductions are
                    subject to negotiations between the regional offices and grantees.

                    Head Start regulations state that ACF can terminate a grant or deny
                    refunding if a grantee received a deficiency because of underenrollment
                    and failed to correct the deficiency.21 In addition, ACF guidance states
                    that ACF can decrease funding in situations in which enrollment issues
                    are caused by changing demographics that have resulted in insufficient
                    numbers of eligible children in a grantee’s service area.22
                    An amendment to the Head Start Act was proposed, but not enacted,
                    during the 109th Congress that would have required grantees to report
                    their enrollment to the Secretary of Health and Human Services, who
                    then would have been required to develop plans to reduce or eliminate
                    underenrollment for any grantee less than 95-percent enrolled. The bill
                    also provided for the recapture, reduction, or withholding of a portion of
                    a grantee’s basic grant in the case of chronic underenrollment.23




                      18 Head Start Management Initiative, 2004. Available online at:
                    http://eclkc.ohs.acf.hhs.gov/hslc/Program%20Design%20and%20Management/Fiscal/Manag
                    ement%20Initiatives/Accountability/fiscal_rep_00058_061605.html. Accessed on
                    January 9, 2007.
                      1945 CFR §§ 1304.60, 1304.61, and 1305.10; ACF Program Instruction, “Achieving and
                    Maintaining Full Enrollment” (ACYF-PI-HS-04-03), November 30, 2004.
                      20 Ibid.
                      21 45 CFR §§ 1304.60, 1304.61, and 1305.10.
                      22 “Achieving and Maintaining Full Enrollment” (ACYF-PI-HS-04-03).
                      23 School Readiness Act of 2005, H.R. 2123, 109th Cong., § 8(f) (as passed by the
                    U.S. House of Representatives, October 25, 2005).



 OEI-05-06-00250    ENROLLMENT LEVELS   IN   H E A D S TA R T                                              5
I N T R O D          U C T         I O N



                        Hispanic Families
                        Although Hispanic families compose 14 percent of the population
                        nationwide, Hispanic children represent 22 percent of the population
                        under 5 years of age.24 Twenty-two percent of the Hispanic population
                        lives in poverty, and almost one-third of Hispanic children under age
                        5 lives in poverty.25 Concerns have been raised that grantees in areas
                        with recent growth in Hispanic population may have difficulty
                        recruiting these families because of cultural and linguistic issues.


                        METHODOLOGY
                        To determine the enrollment levels of Head Start grantees, we analyzed
                        attendance data from 200 grantees randomly selected from a stratified
                        sample. For grantees’ 2005–2006 operating period,26 hereafter referred
                        to as the 2006 program year, we compared grantees’ actual enrollment
                        to their funded enrollment. We also surveyed sampled grantees and
                        ACF staff regarding challenges to maintaining full enrollment. See
                        Table 1 for the definitions of key terminology used when discussing
                        grantee enrollment levels.

                     Table 1: Key Terminology
                     Attendance           A grantee’s daily record of children who are present. If a child does not
                     data                 attend for 30 consecutive days, the child is no longer considered enrolled.
                     Actual               The number of children enrolled with the grantee as of the end of a
                     enrollment           month.
                     Funded               The number of children the grantee is funded to enroll, as
                     enrollment           determined by ACF and as stated in the grantee’s application.
                   Source: OIG summary of key terminology, 2006.


                        To assess ACF’s monitoring of enrollment levels, we reviewed the
                        accuracy of PIR enrollment data and attendance records submitted by
                        grantees. To assess ACF’s enforcement of full enrollment, we
                        interviewed ACF staff and grantees. Lastly, we reviewed all Head Start
                        laws, regulations, and policies pertinent to enrollment.

                           24 U.S. Census Bureau, Current Population Survey, Annual Social and Economic
                        Supplement, 2005. These figures were generated using the Microdata Access, Current
                        Population Survey Table Creator. Available online at
                        http://www.census.gov/hhes/www/cpstc/cps_table_creator.html. Accessed on
                        January 9, 2007.
                           25 Ibid.
                           26 Operating period is defined by the grantee’s contract, and the months covered can
                        differ by grantee.



 OEI-05-06-00250        ENROLLMENT LEVELS    IN   H E A D S TA R T                                                      6
I N T R O D        U C T      I O N


                    Below we provide a basic description of our methodological approach.
                    See Appendix A for a more detailed description of our methodology.
                    Sample
                    This study determines the enrollment levels for Head Start grantees in
                    the 50 States and Washington, DC, hereafter referred to as the
                    51 States. As previously stated, we excluded grantees from the Early
                    Head Start and Migrant and Seasonal programs. We excluded Early
                    Head Start grantees because this is a much smaller program that,
                    according to ACF staff, does not face the same enrollment challenges.
                    We excluded the Migrant and Seasonal program grantees because they
                    face a unique set of logistical, recruitment, and enrollment challenges
                    not typical of other grantees.

                    We also excluded 28 grantees in American Samoa, Guam, the Northern
                    Mariana Islands, Puerto Rico, and the Virgin Islands because the
                    U.S. Census Current Population Survey does not capture Hispanic data
                    for these locations and we therefore could not stratify grantees in these
                    areas appropriately. The exclusion of these 28 grantees brought our
                    study population to 1,377 grantees. We randomly selected 200 grantees
                    out of the 1,377 grantees in the 51 States.

                    To assess enrollment issues related to the shifting Hispanic population,
                    we stratified our sample according to recent growth in the Hispanic
                    preschool-age population using U.S. Census data. Grantees in counties
                    where the total Hispanic population age 4 and under27 increased by
                    more than 40 percent between 2000 and 2004 fell into the “Hispanic
                    growth” stratum; the remaining grantees were placed in the
                    “nongrowth” stratum. 28 To improve our estimates, we also stratified by
                    grantee size. See Table 2 on the next page for our stratified sampling
                    structure.




                      27 This was the most appropriate census category available.
                      28 U.S. Census Bureau, Current Population Survey, Annual Social and Economic
                    Supplement, 2000–2004, Ethnicity and Ancestry Statistics Branch, Population Division.



 OEI-05-06-00250    ENROLLMENT LEVELS   IN   H E A D S TA R T                                               7
I N T R O D              U C T        I O N 




 Table 2: Sample Structure
                                                                                                         Number of
                                                                                      Number of     grantees whose
 Stratum                                                                 Grantee       grantees     attendance data
 Number        Stratum Description                                     population      selected       were reviewed
               Hispanic-growth grantees                                      221             75                  68

 1             Small grantees (funded enrollment <=1,600)                    211             65                  58

 2             Large grantees (funded enrollment >1,600)                      10             10                  10

               Nongrowth grantees                                          1,156            125                 111

 3             Small grantees (funded enrollment <=600)                      908             55                  49

 4             Medium grantees (funded enrollment 601–6,000)                 241             63                  56

 5             Large grantees (funded enrollment >6,000)                       7               7                  6

      Total                                                                1,377            200                 179



                           Data Collection
                           We obtained data for this study from grantee attendance records,
                           grantee surveys, and interviews with ACF staff. We also obtained
                           2006 program year PIR data.

                           We requested 3 months (November 2005 and January and April 2006) of
                           attendance records from sampled grantees. We selected these 3 months
                           after consulting with grantees in pretest interviews to ensure that these
                           months were representative of enrollment during the rest of those
                           years.29
                           Although our request for attendance data yielded a response rate of
                           93 percent, we reviewed attendance data for 90 percent (179 of 200) of
                           sampled grantees. We did not review all attendance records we received
                           because some grantees did not include attendance data for all of their
                           delegate agencies, or they submitted such a large volume of paper
                           attendance records that we could not analyze them within the
                           timeframe of the study.

                           In June 2006, we surveyed grantees to ascertain their difficulty in
                           maintaining full enrollment and to identify challenges affecting
                           enrollment. Overall, our survey achieved a response rate of 95 percent

                              29 We did not select the last 2 months of the program year because of the exemption that

                           allows grantees to leave a vacancy open if it occurs within 60 days of the end of the program
                           year. See 45 CFR § 1305.7(b).



     OEI-05-06-00250       ENROLLMENT LEVELS   IN   H E A D S TA R T                                                   8
I N T R O D        U C T     I O N


                    (189 of 200). We also asked ACF staff to identify challenges grantees
                    face in maintaining full enrollment.

                    To assess ACF’s oversight of enrollment levels, we conducted structured
                    interviews with ACF headquarters staff and key staff in all 10 regional
                    offices and the American Indian–Alaska Native program office
                    (hereafter referred to as 11 regional offices).
                    Data Analysis
                    To determine grantees’ enrollment, we counted all children who
                    attended at least once within each month (i.e., 30 calendar days). We
                    determined the level of actual enrollment by averaging grantees’
                    attendance data over the 3 sampled months. We then compared
                    grantees’ actual enrollment as determined based on attendance records
                    to their funded enrollment as reported by ACF.

                    To assess ACF’s monitoring of enrollment, we reviewed the accuracy of
                    grantee data self-reported to the PIR and attendance records submitted
                    to OIG. We compared the actual enrollment levels reported by grantees
                    in the PIR to our determination of actual enrollment based on
                    attendance records. We also compared grantees’ reported funded
                    enrollment to the funded enrollment figures provided by ACF. Finally,
                    we assessed the ability of grantees to provide us with complete,
                    unduplicated attendance records based on our data request.

                    Unless otherwise noted, we projected all statistics to the population of
                    Head Start grantees in our study. See Appendix B for a list of
                    95-percent confidence intervals for all statistical projections.
                    Limitations
                    Although we requested that grantees provide data for ACF-funded
                    children only and pretested our instruments to ensure their validity,
                    some grantees may have incorrectly submitted attendance records for
                    State-funded children. However, we believe that the risk of this
                    occurring is minimal because ACF regularly asks grantees to
                    distinguish between ACF-funded and State-funded enrollment for the
                    PIR. Further, when grantees use State funds as the 20-percent fiscal
                    match, children served through these matching funds are considered
                    ACF-funded children.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.


 OEI-05-06-00250    ENROLLMENT LEVELS   IN   H E A D S TA R T                               9
Δ   F I N D I N G S 


    Almost all Head Start grantees had high               Overall, enrollment rates by
                           enrollment levels              grantees were high. Forty percent
                                                          of grantees were fully enrolled in
                     the 2006 program year. Eighty-one percent of grantees had enrollment
                     levels of 95 percent or higher. Ninety-one percent of grantees had
                     enrollment levels in excess of 90 percent, leaving only 9 percent of
                     grantees with enrollment levels less than 90 percent. See Table 3 for a
                     breakdown of the enrollment levels by stratum.

                    Table 3: Percentage of Grantees by Enrollment Levels
                    Enrollment Levels                                         Percentage of Grantees
                                                                                      Grantees in      Grantees Not
                                                                                        Hispanic-       in Hispanic-
                                                                   All Grantees     Growth Areas       Growth Areas
                    100%                                                  40%                41%               40%
                    ≥ 95% and < 100%                                      41%                50%               40%
                    ≥ 90% and < 95%                                       10%                 3%               11%
                    Less than 90%                                          9%                 6%                9%
                  Source: OIG analysis of grantee enrollment, 2006.


                     Despite grantees’ overall high enrollment levels, the Head Start 

                     program did experience underenrollment. Enrollment levels by 

                     grantees in our sample ranged from full enrollment to a low of 

                     68 percent.30

                     Nationally, an estimated 5 percent of slots were funded but unfilled
                     The 5 percent of funded but unfilled slots represents approximately
                     33,726 enrollment vacancies. Given the $6.8 billion cost of the Head
                     Start program, less-than-full enrollment could represent ineffective use
                     of considerable Federal dollars. Additionally, less-than-full enrollment
                     may mean that vulnerable children are not receiving early childhood
                     services for which they are eligible.
                     Grantees in areas with recent growth in the Hispanic population had levels
                     of enrollment similar to those of grantees in all other areas
                     Concerns have been raised that grantees serving areas with a recent
                     growth in the Hispanic population may have difficulty maintaining full
                     enrollment because they may have difficulty modifying their
                     recruitment strategies to adapt to the cultural and linguistic differences

                       30 Eighteen grantees in our sample had enrollment levels lower than 90 percent, and
                     three grantees were less than 70-percent enrolled.



OEI-05-06-00250      ENROLLMENT LEVELS     IN   H E A D S TA R T                                                   10
F    I N D I N G       S


                      in the shifting population. However, more grantees in the
                      Hispanic-growth areas were at least 95-percent enrolled than grantees
                      in all other areas. Specifically, 91 percent of grantees in
                      Hispanic-growth areas were at least 95-percent enrolled, while
                      80 percent of grantees in the non-Hispanic-growth areas were at least
                      95-percent enrolled. This difference is statistically significant at the
                      95-percent confidence level. This statistical difference implies that
                      grantees serving areas with high growth rates of Hispanic children have
                      higher enrollment levels. We did not evaluate grantees’ recruitment
                      and enrollment of Hispanic children.

                      Nine regional offices reported a growth of Hispanic families in their
                      regions. None of the staff from these offices believe that the increase
                      poses a challenge for enrollment. In fact, staff from two regional offices
                      reported that the increase in this population helps grantees to maintain
                      full enrollment; one office stated that this is because grantees in
                      Hispanic-growth areas have a larger income-eligible population from
                      which to enroll. Moreover, 80 percent of grantees that reported recent
                      increases in Hispanic families in their service areas reported changing
                      their recruitment strategies to reflect this population change. The most
                      common changes to recruitment strategies were translating program
                      material into Spanish and hiring Spanish-speaking staff.



    Grantees cited challenges to maintaining full            Fifty-five percent of grantees
                                     enrollment              reported difficulty maintaining
                                                             full enrollment during the
                      2006 program year. Even among grantees with enrollment levels of
                                           31

                      95 percent or higher, 49 percent reported difficulty. Grantees who
                      reported difficulties were asked to identify the specific challenges that
                      they faced in maintaining full enrollment. Grantees cited the
                      requirement to fill 90 percent of Head Start slots with very low-income
                      children, competition with State and locally funded prekindergarten
                      programs, and transportation issues. Many ACF regional offices also
                      cited that these challenges face grantees in maintaining full enrollment.




                        31 In our sample, 106 of 189 grantees reported difficulty maintaining full enrollment.
                      The projected percentage is 55 percent of grantees. Because data are self-reported, the
                      noted challenges are the grantees’ perceptions and not demonstrated reasons that grantees
                      are not at full enrollment.



    OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                                                  11
         F    I N D I N G                S


                                        See Table 4 for the percentage of grantees and the number of ACF
                                        regional offices that cited each challenge.

  Table 4: Challenges to Maintaining Full Enrollment

                                                                      Percentage of grantees that       ACF regional offices that
                                                                              reported challenge             reported challenge
 Income requirements too low                                                                71%                           6 of 11
 Competition with other childcare programs                                                  49%                           9 of 11
 Transportation issues                                                                      46%                           6 of 11
Source: OIG analysis of grantee surveys and ACF interviews, 2006.




                                        Grantees report that the income requirement is too low for their service
                                        areas
                                        Among the 55 percent of grantees that reported difficulty maintaining
                                        full enrollment, 71 percent stated that the dollar amounts of the income
                                        requirements are too low for their service areas. As a result, grantees
                                        reported difficulty recruiting enough eligible families. Similarly,
                                        41 percent of grantees noted a decline in the number of eligible families
                                        in their service areas.

                                        Grantees reported that the working poor in their service areas earn
                                        incomes slightly above the poverty guidelines, often at 120 to
                                        150 percent of the poverty level,32 and therefore do not qualify for Head
                                        Start. For example, a family of four with two parents earning the
                                        Federal minimum wage, $5.15/hour,33 would earn enough to be slightly
                                        over the Head Start income guidelines. This problem is of even greater
                                        concern to grantees in States with higher minimum wages.

                                        Twenty-six percent of grantees stated that they could better maintain
                                        full enrollment if ACF increased the income threshold or if ACF
                                        permitted grantees to serve a greater number of families that are above
                                        the stated income guidelines.
                                        Grantees report that competition with other childcare programs is a
                                        challenge
                                        Another reported challenge to maintaining full enrollment relates to the
                                        recent growth in the number of subsidized State and locally funded

                                           32 This amounts to $24,000–$30,000/year for a family of four, respectively.
                                           33 Section 6(a) of the Fair Labor Standards Act of 1938, as amended
                                        (29 U.S.C. § 206(a)(1)).



             OEI-05-06-00250            ENROLLMENT LEVELS     IN   H E A D S TA R T                                             12
F   I N D I N G        S


                      prekindergarten programs. Of the 55 percent of grantees that reported
                      difficulty maintaining full enrollment, 49 percent stated that they
                      compete with these programs for eligible children. According to
                      grantees, these programs are often more convenient to a parent’s job,
                      the family’s home, or places siblings are enrolled, or are more
                      compatible with full-time work schedules. Further, grantees noted that
                      State and locally funded programs can often recruit Head Start-eligible
                      families in addition to families above the poverty guidelines because
                      these programs do not have to comply with Federal income
                      requirements.
                      Grantees report that they are unable to provide, or face obstacles in
                      providing, transportation services
                      Of the 55 percent of grantees that reported difficulty maintaining full
                      enrollment, 46 percent reported transportation issues as a challenge to
                      maintaining full enrollment: either they are unable to provide
                      transportation at all or they face obstacles to providing it. Some
                      grantees in rural areas find that eligible families live outside their
                      transportation service areas. Budget constraints have forced grantees
                      in both urban and rural areas to reduce or eliminate bus routes. In
                      addition, grantees stated that State programs are able to offer
                      transportation while many Head Start grantees are not, further
                      contributing to a competitive disadvantage.



                                                                  ACF primarily relies on PIR
      ACF’s monitoring of enrollment levels may rely
                                                                  data to monitor enrollment.
                                 on inaccurate data               We found inaccuracies in the
                      grantee-reported actual enrollment and funded enrollment data in the
                      PIR. We also have concerns about the accuracy of the attendance
                      records some grantees use as the basis for reporting their actual
                      enrollment to the PIR.
                      Most grantees reported inaccurate enrollment data in the PIR
                      For the 2006 program year, only 11 percent of grantees reported actual
                      enrollment levels that matched those we determined based on our
                      review of grantee-provided attendance records. Of the 89 percent of
                      grantees that misreported their actual enrollment levels, 69 percent
                      overreported their enrollment and 19 percent underreported their
                      enrollment. The net effect of this misreporting is an overreporting by
                      38,587 children. Of the grantees that misreported, 20 percent



    OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                           13
F   I N D I N G        S


                      misreported by more than 50 children, which accounts for 88 percent of
                      the misreporting.

                      Grantees’ overreporting affects ACF’s ability to monitor enrollment
                      using PIR data. According to the 2006 PIR data, total actual enrollment
                      was 4 percent higher than the total funded enrollment. By contrast, in
                      reviewing attendance records, we determined that the total actual
                      enrollment was an estimated 5 percent lower than total funded
                      enrollment.

                      Similarly, our review indicated that 40 percent of grantees were fully
                      enrolled, while PIR data indicated that 59 percent of grantees were fully 

                      enrolled. We found that
        Table 5: Percentage of Grantees by

                      9 percent of grantees had
      Enrollment Levels (OIG vs. PIR) 

                      enrollment rates of less
       Enrollment Levels 
             Percentage of 

                      than 90 percent. 
                                                 Grantees 

                      According to PIR data, 
                                      OIG review
         PIR
                      only 1 percent of grantees 
    100% 
                                40%
       59%

                      were less than 90-percent 
     ≥95% and <100% 
                      41%
       36%

                      enrolled. See Table 5 for a 
 ≥90% and <95%
                          10%
         5%

                      full comparison of the OIG 
 Less than 90%
                             9%
        1%

                      review of enrollment levels Source: OIG analysis of grantee enrollment and PIR data, 

                      by grantee to the reported    2006. 


                      PIR data.34

                      In addition to reporting actual enrollment, grantees report their 

                      understanding of their funded enrollment in the PIR. In the 2006 

                      program year, 7.5 percent of grantees reported in the PIR funded

                      enrollment levels different from levels in official ACF records. 

                      Fifty-seven percent of these inaccuracies involved differences of more

                      than 20 slots from official ACF records. ACF headquarters staff could 

                      not identify reasons for these discrepancies. These differences limit the

                      validity of the PIR and raise concerns that some grantees are unaware

                      of the number of children whom they are responsible for serving. 


                      Two previous OIG reports highlight the need for PIR training to ensure

                      accurate reporting.35 The inaccuracies in PIR data suggest that



                        34 There are no statistically significant differences between OIG and PIR enrollment

                      levels for grantees 95- to less than 100-percent enrolled and 90 to less than 95-percent
                      enrolled.
                        35 “Status of Efforts To Increase the Qualifications of Head Start Teachers,” and “Head
                      Start Services for Children With Asthma.”



    OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                                                   14
F   I N D I N G         S


                       grantees are still not receiving PIR training. Only 3 of 11 regional
                       offices reported providing PIR training to grantees and only 6 percent of
                       grantees reported receiving any (PIR or other) enrollment-related
                       training from their regional offices.
                       The ability of 26 percent of grantees to produce accurate attendance counts
                       is questionable
                       PIR data may be inaccurate if Head Start grantees are unable to
                       accurately monitor attendance and thus determine enrollment. In
                       conducting this review, we had significant concerns about the ability of
                       26 percent of grantees to produce accurate attendance counts. We
                       determined accurate enrollment counts for these grantees only after a
                       labor-intensive cross-check among multiple files.

                       In response to our data request, 74 percent of sampled grantees
                       provided records for all children they served in a given month compiled
                       into a single file or list, or used a system capable of producing such a
                       report.36 Twenty-two percent of grantees submitted attendance data
                       separated by classroom or delegate agency and did not appear to have
                       systems capable of compiling accurate attendance lists. Another
                       4 percent of grantees could not provide us with completed attendance
                       data because they could not collect attendance records from all of their
                       delegate agencies or the burden of gathering their attendance data
                       would have taken longer than the study allowed.37


                                                                   Regional offices reported
                 ACF’s enforcement of full enrollment has
                                                                   taking a variety of
                   increased overall but varies by region          enforcement actions with
                                                                   grantees that were not
                       fully enrolled. The most commonly cited enforcement action was
                       withholding or reducing funds. Other commonly cited actions include
                       supplemental monitoring and providing technical assistance.




                         36 Several electronic software packages are capable of producing an unduplicated,
                       complete list of children. Therefore, grantees that submitted data from one of these
                       systems could produce accurate counts of their enrollment.
                         37 We accepted grantee data up to 2.5 months after our initial data request.




    OEI-05-06-00250    ENROLLMENT LEVELS   IN   H E A D S TA R T                                              15
F   I N D I N G        S


                      ACF’s action of reducing or withholding funds has increased, but its use
                      varies by region
                      Reducing or withholding funds as an enforcement action has increased
                      since 2003. At that time, three regional offices reduced funds for six
                      grantees, and two regional offices withheld funds.38 In the 2006
                      program year, 8 regional offices reported that they reduced funds for
                      30 grantees. In addition, three regional offices temporarily withheld
                      funding until the grantees achieved full enrollment.39
                      The levels of enrollment that prompted regions to reduce funds varied
                      widely in 2006: five regions reported reducing funds when a grantee
                      was chronically underenrolled,40 one region reduced funds when
                      enrollment levels fell below 90 percent, and one region reported
                      reducing funds to grantees less than 100-percent enrolled. Among the
                      eight regional offices reporting funding reductions, four reduced funds
                      when the number of eligible families in grantees’ service areas declined.

                      The amount of funding reductions imposed by regions also varied. To
                      determine funding reductions, 6 of 11 regional offices reported that they
                      negotiate a cost-per-child reduction less overhead and administrative
                      costs. Among the 30 grantees that experienced funding reductions in
                      2006, there was over a $9,000 range between the cost-per-child
                      reduction.41
                      The observed range of reductions per enrollment vacancy may be
                      attributed to a number of factors. First, there is no standard Head
                      Start cost per child. Therefore, grantees funded to serve the same
                      number of children may receive different grant awards. Second,
                      regional offices, in consultation with ACF, negotiate funding reductions
                      with grantees. Lastly, the only guidance ACF headquarters provides to
                      regional offices describes situations in which a funding reduction may




                        38 “Head Start: Better Data and Processes Needed To Monitor Underenrollment”

                      (GAO-04-17), p. 25.
                        39 These grantees had between 10 and 200 enrollment vacancies.
                        40 Three regional offices did not define “chronic,” one regional office defined a grantee as
                      chronically underenrolled when the grantee was underenrolled for at least 6 months, and
                      one regional office defined a grantee as chronically underenrolled when a grantee was
                      underenrolled for at least 1 year.
                        41 The 30 grantees that lost funding in the 2006 program year lost between $906 and
                      $10,000 per enrollment vacancy.



    OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                                                   16
F   I N D I N G        S


                      be appropriate. 42 The guidance does not specify how to determine the
                      amount of the reduction or the process of negotiation.
                      Supplemental monitoring and technical assistance also increased
                      Since 2003, ACF has also increased its use of supplemental monitoring
                      and technical assistance as enforcement actions. In 2003, only five
                      regional offices increased monitoring and three provided technical
                      assistance in response to underenrolled grantees.43 In the 2006
                      program year, 8 of 11 regional offices increased monitoring and 6 of 11
                      provided technical assistance to grantees not at full enrollment.




                         42 Once a regional office becomes aware of an underenrolled grantee, the grantee
                      generally has 90 days to correct the problem. If the grantee remains underenrolled, it may
                      be cited as deficient and given another period, not to exceed 90 days, before the regional
                      office begins the process of a funding reduction or termination. “Achieving and Maintaining
                      Full Enrollment” (ACYF-PI-HS-04-03).
                        43 “Head Start: Better Data and Processes Needed To Monitor Underenrollment”
                      (GAO-04-17), p. 25.



    OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                                               17
F IE NC DO I M N MG E S N D A T
R                                        I O N                  S
Δ     R E C O M M E N D A T I O N S                                 


                    We found relatively high levels of enrollment among Head Start
                    grantees. In fact, 81 percent of grantees were at least 95-percent
                    enrolled in the 2006 program year. Despite high enrollment, more than
                    half of grantees reported challenges to maintaining full enrollment. In
                    addition, we found continued inaccuracies in the data used to monitor
                    enrollment. Finally, we found that although ACF enforcement of full
                    enrollment had increased, enforcement varied by region.

                    Based on the results of our review, ACF should:
                    Address Grantee Challenges to Maintaining Full Enrollment
                    ACF should focus particular attention on the challenges identified in
                    this report: specifically, the requirement that grantees fill 90 percent of
                    slots with children from very low-income families, competition with
                    State and locally funded prekindergarten programs, and transportation
                    issues.
                    o	 To address concerns regarding the requirement that grantees fill
                      90 percent of slots with children from very low-income families,
                      ACF could amend its regulations to increase the allowable
                      percentage of eligible families that exceed the income guidelines or
                      assist grantees in identifying and recruiting categorically eligible
                      families, i.e., those receiving TANF or SSI or those with foster
                      children.
                    o	 To address concerns about competition with State and locally
                      funded prekindergarten programs, ACF could work with grantees
                      to increase coordination with these programs. Increased
                      coordination could help ensure that States make information
                      available to parents about Head Start programs.
                    o	 To address concerns regarding transportation, ACF could provide
                      technical assistance to grantees regarding transportation resources.
                    Ensure That Enrollment Data Are Accurate
                    To help ensure the accuracy of reported enrollment data, ACF should:

                    o	 Work with grantees to maintain accurate attendance records. To
                      facilitate this, ACF could encourage the use of electronic attendance
                      records.
                    o	 Provide PIR training to grantees.

                    o	 Fill in the grantee’s funded enrollment field in the PIR. Because
                      ACF establishes the funded enrollment level, there is no need to ask



  OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                              18
R   E C O        M M E N D A T             I O N                  S


                        grantees to report this. This allows for an unnecessary source of
                        reporting error.
                      Issue Guidance Concerning the Use of Funding Reductions for Grantees
                      Not at Full Enrollment
                      To ensure consistent enforcement of the full enrollment requirement,
                      ACF should:
                      o	 clarify guidelines to regional offices concerning the level of
                        enrollment that warrants a funding reduction, and
                      o	 issue guidance to regional offices concerning the calculation of
                        funding reductions and the process of negotiating funding
                        reductions with grantees.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      ACF indicated general support for our recommendations. However,
                      ACF pointed out problems with two suggestions we offered on how our
                      recommendation to address grantee enrollment challenges regarding
                      the requirement that grantees fill 90 percent of slots with children from
                      very low-income families might be implemented. First, ACF stated that
                      it is not within its purview to change the income guidelines. Second,
                      ACF did not support our suggestion to amend its regulation to increase
                      the allowable percentage of eligible Head Start families that exceed the
                      low-income guidelines. ACF felt that this change would allow grantees
                      to enroll higher-income children without ensuring participation by the
                      neediest children. The complete text of ACF’s comments is located in
                      Appendix C.

                      We understand ACF’s concern that Head Start continue to serve the
                      neediest children. However, grantees cited the current Head Start
                      income-eligibility requirements as a challenge to maintaining full
                      enrollment. Thus, we continue to recommend that ACF address
                      grantees’ reported challenges to maintaining full enrollment, including
                      challenges related to the income-eligibility guidelines.

                      ACF’s technical comments are not included in Appendix C, but we made
                      changes in the report where appropriate.




    OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                             19
Δ   A P P E N D I X ~ A                              



                  DETAILED METHODOLOGY
                  Sample
                  To improve the precision of our enrollment estimates, we stratified our
                  sample by grantee size. Within the Hispanic-growth stratum, we
                  created two substrata based on size; within the nongrowth stratum, we
                  created three substrata based on size. The size-of-grantee strata are
                  defined differently for the Hispanic-growth stratum and the nongrowth
                  stratum because the relative sizes of grantees are different for these
                  groups (i.e., there are more large grantees in the nongrowth stratum).
                  We do not make comparisons of grantees based on their size.
                  Data Collection
                  Data for this study came from grantee attendance records, grantee
                  surveys, interviews with the Administration for Children and Families
                  (ACF) staff, and 2006 program year Program Information Report (PIR)
                  data.

                  To ensure the construct validity of our grantee survey instrument and
                  data request for attendance records, we pretested both on a subset of
                  22 grantees. After the grantees responded, we contacted them by phone
                  to conduct a short cognitive interview to determine whether the survey
                  and data request were clear and understandable. The vast majority of
                  grantees interpreted the questions as we intended. We altered the few
                  unclear questions to make them more understandable. We included
                  these pretested grantees in the final sampling frame.

                  We also conducted in-depth reviews of attendance records for 9 of the
                  22 Head Start grantees selected for pretesting. In these reviews, we
                  compared grantees’ original attendance records with attendance
                  information grantees provided us. We found that our instrument was
                  successful in eliciting accurate attendance records.

                  Our request for attendance data yielded a response rate of 93 percent
                  (185 of 200). We designed our sample to produce an estimate of the
                  total number of enrolled and underenrolled Head Start slots with an
                  expected relative precision of 15 percent at the 95-percent confidence
                  level, assuming a grantee response rate of 80 percent. Beyond the nine
                  grantees that did not respond to our request, an additional six grantees
                  did not comply with the data request because they either could not
                  collect attendance records from all their delegate agencies or the effort
                  of gathering all of their attendance data would have taken the grantees
                  more time than the study allowed.

OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                            20
A   P   P E N D       I X     ~      A


                      Another six grantees submitted a large volume of hard-copy attendance
                      records. We determined that the task of reviewing these hard-copy
                      records was significant and would have taken longer than the time
                      allotted for the study. Because we designed our sample to obtain
                      precise estimates with a grantee response rate as low as 80 percent and
                      our response rate would be 90 percent (179 of 200) without including
                      these six, we did not analyze attendance records for these six grantees.
                      Thus, we reviewed attendance data for 90 percent (179 of 200) of
                      sampled grantees.

                      To understand ACF regional offices’ enforcement of full enrollment, we
                      interviewed staff from all 11 regions. We asked regional offices about
                      their definitions of underenrollment, the actions they took in response
                      to grantees’ failure to maintain full enrollment, and the number of
                      grantees whose funding they reduced and/or froze during the
                      2006 program year because of the inability to maintain full enrollment.
                      Data Analysis
                      Estimating enrollment levels. For each grantee, we counted children as
                      enrolled if they attended at least once within a given month. We could
                      not determine whether a child whose first day of attendance was after
                      the beginning of the month was filling a vacancy that had been open for
                      more than 30 days. Also, because we counted each child who attended
                      at least 1 day in the month as a separate enrolled slot, it is possible that
                      we double-counted children who were filling the same slot. For
                      example, if a child attended at the beginning of the month and then
                      dropped out and another child filled that slot within 30 days, we would
                      count them as filling two enrolled slots. This method produced a
                      conservative count of enrolled children.
                      We used grantees’ average attendance data over 3 sampled months to
                      determine their actual levels of enrollment. We then compared the
                      number of children actually enrolled to grantees’ funded enrollment
                      according to ACF. We projected from our sample to the population of
                      Head Start grantees to estimate the proportion of fully enrolled
                      grantees and the degree to which other grantees were enrolled. We also
                      estimated enrollment levels nationwide and the total number of
                      enrollment vacancies.

                      Comparing our estimates of enrollment levels with the PIR. The PIR
                      requires that grantees report their enrollment for 3 specified months
                      per year. To facilitate comparison between our enrollment data and the
                      PIR, we chose two sampled months (November 2005 and April 2006) to

    OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                              21
A   P   P E N D       I X     ~      A


                      overlap with PIR reporting months. To assess accurate reporting of
                      actual enrollment levels, we compared the 179 grantees’ actual
                      enrollment levels from our review to the actual enrollment levels they
                      reported in the PIR for these 2 months.
                      Limitations
                      Although we requested that grantees provide data for ACF-funded
                      children only and we pretested our instruments to ensure validity, some
                      grantees may have incorrectly submitted attendance records for
                      State-funded children.

                      State funding for Head Start services is still relatively uncommon. ACF
                      headquarters staff reported that State-funded Head Start slots are
                      proportionally few compared to ACF-funded Head Start slots.
                      According to ACF, only 7 percent (14 of 200) of sampled grantees served
                      State-funded children during the 2006 program year. In the event that
                      some grantees included State-funded children in their attendance
                      records, our enrollment level estimates would be conservative.

                      To reduce the possible effect of grantees reporting State-funded children
                      along with ACF-funded children in their attendance records, we
                      considered grantees whose actual enrollment was greater than
                      ACF-funded enrollment to be fully enrolled and did not report the
                      amount of overenrollment.




    OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                           22
        R    E C O          M M E N D A T                       I O N                 S
     Δ            A P P E N D I X ~ B                                        





                                        ESTIMATES AND CONFIDENCE INTERVALS 




  Table 6A: Estimates Discussed in Finding One: Almost All Head Start Grantees Had High
  Enrollment Levels

                                                                                                                                        95-Percent
                                                                                                      Sample         Point              Confidence
  Estimate Description                                                                                  Size      Estimate                 Interval
  Percentage of grantees at least 95-percent enrolled                                                     179           81.5%        74.2%–88.9%
  Overall percentage of Head Start slots unfilled                                                         179           4.6%            2.9%–6.2%
  Number of total unfilled Head Start slots                                                               179       33,726          20,551–46,901
  Percentage of grantees in the Hispanic strata at least 95-percent
  enrolled                                                                                                 68           91.0%        85.7%–96.3%
  Percentage of grantees in the non-Hispanic strata at least
  95-percent enrolled                                                                                     111           79.7%        71.0%–88.4%
  Percentage of grantees who reported changing their recruitment
  strategies because of an increase in the Hispanic population in their
  service area                                                                                            111           79.7%        70.2%–89.2%
Source: Office of Inspector General analysis of grantee attendance records, 2006.




  Table 6B: Estimates in Table 3 of Finding One: Almost All Head Start Grantees Had High
  Enrollment Levels

                                                                                             Percentage of Grantees
  Enrollment Levels                                                                       95-Percent Confidence Interval

                                                                                               Grantees in Hispanic-      Grantees Not in Hispanic-
                                                           All Grantees                               Growth Areas                  Growth Areas
                                                               (n = 179)                                     (n = 68)                      (n = 111)
                                                               40.2%                                         41.0%                          40.1%
  100%                                                 (30.8%–49.6%)                                 (30.6%–51.4%)                  (29.1%–51.1%)
                                                               41.3%                                         50.1%                          39.6%
  ≥ 95% and < 100%                                     (32.1%–50.6%)                                 (39.6%–60.6%)                  (28.8%–50.5%)
                                                                9.8%                                          2.6%                          11.2%
  ≥ 90% and < 95%                                       (4.1%–15.5%)                                   (0.9%–7.2%)                   (4.4%–18.0%)
                                                                8.7%                                          6.4%                           9.1%
  < 90%                                                 (3.4%–13.9%)                                  (1.7%–11.0%)                   (2.9%–15.3%)
Source: Office of Inspector General analysis of grantee attendance records, 2006.




            OEI-05-06-00250             ENROLLMENT LEVELS     IN   H E A D S TA R T                                                           23
        A    P    P E N D             I X         ~        B            





  Table 7: Estimates Discussed in Finding Two: Grantees Cited Common Challenges To Maintaining
  Full Enrollment

                                                                                                            95-Percent
                                                                                       Sample      Point    Confidence
  Estimate Description                                                                   Size   Estimate       Interval
  Percentage of grantees that reported difficulty maintaining full
  enrollment                                                                             189      54.7%    45.6%–63.9%
  Percentage of grantees at least 95-percent enrolled that expressed
  difficulty maintaining full enrollment                                                 144      48.9%    38.4%–59.4%
  Of the 55 percent of grantees that reported difficulty maintaining full
  enrollment, the percentage that cited low-income requirements as a
  challenge                                                                              106      71.2%    60.2%–82.1%
  Of the 55 percent of grantees that reported difficulty maintaining full
  enrollment, the percentage that cited population shifts/declines as a
  challenge                                                                              106      41.3%    29.0%–53.7%
  Of the 55 percent of grantees that reported difficulty maintaining full
  enrollment, the percentage that stated that they could better
  maintain full enrollment if ACF increased the income thresholds or
  permitted grantees to serve a greater number of families above the
  stated income guidelines                                                                106     26.0%    15.2%–36.8%
  Of the 55 percent of grantees that reported difficulty maintaining full
  enrollment, the percentage that cited competition with State
  programs as a challenge                                                                 106     49.5%    37.0%–62.0%
  Of the 55 percent of grantees that reported difficulty maintaining full
  enrollment, the percentage that cited transportation issues as a
  challenge                                                                              106      45.8%    33.3%–58.2%
Source: Office of Inspector General analysis of grantee surveys, 2006.




            OEI-05-06-00250            ENROLLMENT LEVELS       IN   H E A D S TA R T                             24
        A    P    P E N D             I X         ~        B            





  Table 8: Estimates Discussed in Finding Three: ACF’s Monitoring of Enrollment Levels May Rely
  on Inaccurate Data

                                                                                                                       95-Percent
                                                                                                Sample      Point      Confidence
  Estimate Description                                                                            Size   Estimate         Interval
  Percentage of grantees that reported actual enrollment levels that
  matched those we determined based on our review of attendance
  records                                                                                         175      11.2%     4.8%–17.6%
  Percentage of grantees that misreported actual enrollment levels                                175      88.8%    82.4%–95.2%
  Percentage of grantees that overreported actual enrollment levels                               175      69.4%    60.7%–78.1%
  Percentage of grantees that underreported actual enrollment levels                              175      19.4%    12.3%–26.5%
  Net number of children misreported                                                              159     38,587    22,802–54,373
  Percentage of grantees that misreported actual enrollment levels by
  more than 50 children                                                                           175      19.6%    12.3%–27.0%
  Percentage of misreporting accounted for by the 20 percent of
  grantees that misreported by more than 50 children                                               159     87.8%    80.8%–94.7%
  Percentage of grantees that reported receiving any enrollment-
  related training from their regional offices                                                    189       5.7%     0.9%–10.5%
  Percentage of grantees for which we had significant concerns about
  their ability to produce accurate attendance counts                                             191      26.2%    17.9%–34.4%
  Percentage of grantees that provided records for all children they
  served in a given month compiled into a single file or list or used
  systems capable of producing such reports                                                       191      73.8%    65.6%–82.1%
  Percentage of grantees that submitted attendance data separately
  by classroom or delegate agency and did not appear to have
  systems capable of compiling accurate attendance lists                                          191      21.7%    14.0%–29.4%
  Percentage of grantees that could not provide us with completed
  attendance data because they could not collect attendance records
  from all their delegate agencies or the task of gathering attendance
  data would have taken longer than the study allowed                                             191       4.5%       0.3%–8.6%
Source: Office of Inspector General analysis of grantee surveys and attendance records, 2006.




            OEI-05-06-00250            ENROLLMENT LEVELS       IN   H E A D S TA R T                                        25
Δ   A P P E N D I X ~ C


                  AGENCY COMMENTS




OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T   26
A   P   P E N D       I X     ~      C             





    OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T   27 

A   P   P E N D       I X     ~      C             





    OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T   28 

Δ   A C K N O W L E D G M E N T S                             


                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas Komaniecki, Deputy Regional Inspector
                  General.

                  This report was led by Emily Melnick and Anne Bracken. Other
                  principal Office of Evaluation and Inspections staff who contributed
                  include Kevin Farber, Alan Levine, Tamara Perry, Louise Schoggen,
                  Elise Stein, Rosaella Washington, and Mara Werner.




OEI-05-06-00250   ENROLLMENT LEVELS   IN   H E A D S TA R T                          29
